                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




               Audit Report

Statement on Auditing Standards No. 70, Report
on the National Information Technology Center
  General Controls Review – Fiscal Year 2008




                               Report No. 88501-12-FM
                                      September 2008
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


September 19, 2008



REPLY TO
ATTN OF:       88501-12-FM

TO:            Charles R. Christopherson, Jr.
               Chief Information Officer
               Office of the Chief Information Officer

THROUGH: Sherry Linkins
         Office of the Chief Information Officer
         Information Resources Management

FROM:          Robert W. Young             /s/ Tracy LaPoint (for)
               Assistant Inspector General
                for Audit

SUBJECT:       Statement on Auditing Standards No. 70, Report on the National Information
               Technology Center General Controls Review - Fiscal Year 2008


This report presents the results of our audit of the internal control structure at the Office of the
Chief Information Officer/National Information Technology Center as of June 30, 2008. The
audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States including American Institute of Certified Public
Accountants Professional Standards commonly referred to as a Statement on Auditing Standards
70 audit. The report contains an unqualified opinion on the internal control structure and
contains no recommendations.

If you have any questions, please call me at (202) 720-6945, or have a member of your staff
contact Jane Bannon, Director, Administration and Finance Division, at (202) 720-1918.
.
Executive Summary
Statement on Auditing Standards No. 70, Report on the National Information
Technology Center General Controls Review - Fiscal Year 2008 (Audit Report No.
88501-12-FM)

Results in Brief   This report presents the results of our audit of the Office of the Chief
                   Information Officer/National Information Technology Center’s
                   (OCIO/NITC) internal control structure as of June 30, 2008. Our review
                   was conducted in accordance with Government Auditing Standards issued
                   by the Comptroller General of the United States including American
                   Institute of Certified Public Accountants Professional Standards as
                   amended by applicable statements on auditing standards. Our report
                   contains an unqualified opinion on the center’s internal control structure.
                   Our objectives were to perform procedures necessary to express opinions
                   about whether (1) OCIO/NITC’s description of controls in exhibit A
                   presents fairly, in all material respects, the aspects of OCIO/NITC’s
                   controls that may be relevant to a customer agency’s internal control as it
                   relates to an audit of financial statements; (2) the controls included and/or
                   referenced were placed in operation and suitably designed to achieve the
                   control objectives specified in the description, if those controls were
                   complied with satisfactorily, and customer agencies applied the controls
                   contemplated in the design of OCIO/NITC’s controls; and (3) the controls
                   we tested were operating with sufficient effectiveness to provide
                   reasonable, but not absolute, assurance that the control objectives
                   specified were achieved during the period from July 1, 2007, through
                   June 30, 2008.
                   Our audit disclosed that the control objectives and techniques identified in
                   exhibit A presented fairly, in all material respects, the relevant aspects of
                   OCIO/NITC’s control environment taken as a whole. Also, in our
                   opinion, the policies and procedures, as described, were suitably designed
                   to provide reasonable assurance that the control objectives would be
                   achieved and were operating effectively.
Recommendation
In Brief           We do not make any recommendations in this report.




USDA/OIG-A/88501-12-FM                                                                   Page i
Abbreviations Used in This Report



C&A            certification and accreditation
CMITS          Configuration Management Information Tracking System
DAA            designated approving authority
ID             identification
IS             information system
IT             information technology
NIST           National Institute of Standards and Technology
OCIO           Office of the Chief Information Officer
NITC           National Information Technology Center
OIG            Office of Inspector General
PIA            Privacy Impact Assessments
POA&M          plan of action & milestones
RA             risk assessments
SSP            System Security Plan
ST&E           Security Test and Evaluation
USDA           U.S. Department of Agriculture




USDA/OIG-A/88501-12-FM                                                Page ii
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General
To:    Charles R. Christopherson, Jr.
       Chief Information Officer
       Office of the Chief Information Officer

We have examined the controls identified or referenced in exhibit A for the U.S. Department of
Agriculture’s (USDA) Office of the Chief Information Officer/National Information Technology
Center (OCIO/NITC). Our examination included procedures to obtain reasonable assurance
about whether (1) the accompanying description of controls of the USDA’s OCIO/NITC presents
fairly, in all material respects, the aspects of OCIO/NITC’s controls that may be relevant to a
customer agency’s internal control as it relates to an audit of financial statements; (2) the
controls included or referenced in the description had been placed in operation as of June 30,
2008; and (3) such controls were suitably designed to achieve the specified control objectives if
those controls were complied with satisfactorily, and customer agencies applied the controls
contemplated in the design of OCIO/NITC’s controls. The control objectives were specified by
OCIO/NITC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

In our opinion, OCIO/NITC’s description of controls in exhibit A of this report presents fairly, in
all material respects, the relevant aspects of OCIO/NITC that had been placed in operation as of
June 30, 2008. Also, in our opinion, the controls included or referenced in exhibit A were
suitably designed to provide reasonable assurance that the specified control objectives would be
achieved if the described controls were complied with satisfactorily and customer agencies
applied the controls contemplated in the design of OCIO/NITC’s controls.

In addition, we performed tests to obtain evidence regarding the effectiveness of specific controls
in meeting the control objectives included in exhibit A during the period from July 1, 2007,
through June 30, 2008. The specific controls and the nature, timing, extent, and results of our
tests are identified in exhibit B. This information will be provided to customer agencies and
their auditors to be taken into consideration, along with information about the internal control at
customer agencies, when making assessments of control risk for customer agencies.


USDA/OIG-A/88501-12-FM                                                                      Page 1
In our opinion, the controls that were tested were operating with sufficient effectiveness to
provide reasonable, but not absolute, assurance that the control objectives specified in exhibit A
were achieved during the period from July 1, 2007, through June 30, 2008.

The relative effectiveness and significance of specific controls at OCIO/NITC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the
controls and other factors present at individual customer organizations. We have performed no
procedures to evaluate the effectiveness of controls at individual customer agencies as part of
this audit.

The description of controls at OCIO/NITC is as of June 30, 2008, and information about tests of
the operating effectiveness of specific controls covers the period from July 1, 2007, through
June 30, 2008. Any projections of such information to the future are subject to the risk that,
because of change, they may no longer portray the controls in existence. The potential
effectiveness of specific controls at OCIO/NITC is subject to inherent limitations and,
accordingly, errors or fraud may occur and not be detected. The projection of any conclusions,
based on our findings, to future periods is subject to the risk that (1) changes made to the system
or controls, (2) changes in processing requirements, or (3) changes required because of the
passage of time may alter the validity of such conclusions. Furthermore, the accuracy and
reliability of data processed by OCIO/NITC and the resultant report ultimately rests with the
customer agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCIO/NITC, its users, and their auditors.


/s/ Tracy LaPoint (for)

Robert W. Young
Assistant Inspector General
 for Audit

September 19, 2008




USDA/OIG-A/88501-12-FM                                                                      Page 2
 The subsequent sections of the report, Exhibit A (pages 3
 through 42) and Exhibit B (pages 43 through 60), are not
being publicly released due to the sensitive security content.
